<html>
<title> - A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE ARMY CORPS OF ENGINEERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      A REVIEW OF THE PRESIDENT'S
                    FISCAL YEAR 2013 BUDGET REQUEST
                    FOR THE ARMY CORPS OF ENGINEERS

=======================================================================

                                (112-79)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 27, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
73-531                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works), United States Department of the Army...................     9
Major General Merdith W.B. Temple, Acting Chief of Engineers, 
  United States Army Corps of Engineers..........................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Steve Cohen, of Tennessee...................................    33
Hon. Eddie Bernice Johnson, of Texas.............................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Jo-Ellen Darcy..............................................    36
Major General Merdith W.B. Temple................................    46

                       SUBMISSIONS FOR THE RECORD

United States Army Corps of Engineers, responses to questions 
  from:

    Subcommittee on Water Resources and Environment, Republican 
      members....................................................    53
        Individual Republican members:

            Hon. Gary G. Miller, a Representative in Congress 
              from the State of California.......................    76
            Hon. James Lankford, a Representative in Congress 
              from the State of Oklahoma.........................    77
            Hon. Reid J. Ribble, a Representative in Congress 
              from the State of Wisconsin........................    79

    Subcommittee on Water Resources and Environment, Democratic 
      members....................................................    80
        Individual Democratic members:

            Hon. Eddie Bernice Johnson, a Representative in 
              Congress from the State of Texas...................   105
            Hon. Steve Cohen, a Representative in Congress from 
              the State of Tennessee.............................   106
            Hon. Grace F. Napolitano, a Representative in 
              Congress from the State of California..............   108

[GRAPHIC] [TIFF OMITTED] T3531.001

[GRAPHIC] [TIFF OMITTED] T3531.002

[GRAPHIC] [TIFF OMITTED] T3531.003

[GRAPHIC] [TIFF OMITTED] T3531.004

[GRAPHIC] [TIFF OMITTED] T3531.005

[GRAPHIC] [TIFF OMITTED] T3531.006

[GRAPHIC] [TIFF OMITTED] T3531.007

[GRAPHIC] [TIFF OMITTED] T3531.008



  A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE 
                        ARMY CORPS OF ENGINEERS

                              ----------                              


                        TUESDAY, MARCH 27, 2012

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:09 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. I am going to convene the 
Subcommittee on Water Resources and Environment of the 
Committee on Transportation and Infrastructure. Welcome.
    I will start here on my opening statement. Today, we are 
having a hearing to review the fiscal year 2013 budget 
priorities of the United States Army Corps of Engineers.
    I am a strong supporter of the efforts by Congress to 
control Federal spending, but many of the Army Corps of 
Engineers activities that we are examining today are true 
investments in America because they provide jobs and economic 
return.
    For too long, this administration has shortchanged and 
misprioritized the projects and programs of this agency. I 
believe we must be supportive of programs that have a proven 
record of providing economic benefits.
    For nearly two centuries, the Civil Works Commission of the 
Corps has contributed to the economic vitality of the Nation 
and improved our quality of life.
    The fiscal year 2013 budget request by the administration 
for the Corps of Engineers is $4.7 billion. This request is 
almost 5.5 percent less than what Congress enacted in fiscal 
year 2012.
    In 2011, we had some of the worse flooding on record in 
this country. In 2014, it is likely the expanded Panama Canal 
will become operational.
    Yet the President proposes to cut approximately $20 million 
from flood damage, reduction activities, and once again, short 
changes the navigation budget.
    While the President is proposing an increase of $28 million 
out of the Harbor Maintenance Trust Fund for fiscal year 2013, 
this will not keep up with the growing demand on our ports to 
accommodate more and larger ships.
    Dredging is a fuel intensive business, and since the 
administration seems intent on letting fuel prices rise, this 
$28 million increase will actually continue to put us further 
behind in our dredging needs.
    The President is once again proposing to spend only half of 
the money being collected from the Harbor Maintenance Fund.
    Only if our ports and waterways are at their authorized 
depths and widths will products be able to move to the overseas 
destinations in an efficient and economical manner.
    Once again, only 2 of the Nation's 10 largest ports are at 
their authorized depths and widths.
    The President's budget does nothing to ensure the 
competitiveness of American products in world markets. That 
hurts businesses and costs us jobs.
    Given the fact that the navigation projects and the flood 
damage reduction projects provide economic benefits to the 
Nation, I would like to see the administration place a higher 
priority on these types of water resources investments.
    All the Corps projects put people to work, which is another 
reason to put these investments on the high priority list.
    Savings can be found by slowing down work in some 
environmental restoration projects until the economy turns 
around.
    I would like everyone to take a look on the screens on the 
wall around the Committee hearing room. This is a picture of 
the uncompleted report for the proposed navigation improvements 
at the Savannah, Georgia, project.
    Construction of this project was authorized in 1999 and 
subject to completion of a general re-evaluation report.
    Again, in this picture you will see a size of a report that 
is still not complete. This study has taken 13 years and still 
is ongoing. Yet, in Panama, it will likely only take them 7 
years to go from a concept to a completed project.
    In addition, more than 40 percent of the project costs will 
be for fish and wildlife mitigation. These were requirements 
added to the project by the United States Department of the 
Interior and the National Marine Fisheries Service.
    Sadly, Savannah is not the extreme case. It instead is the 
new normal.
    In some cases, the Corps of Engineers places unnecessary 
hurdles on its own way it completes studies and projects. We 
have heard the Corps sometimes agrees to conduct additional 
studies on a project for information that they do not really 
need just to avoid a lengthy lawsuit.
    In many other cases, outdated laws written by Congress or 
``one size fits all'' regulations from other Federal agencies 
will delay or even kill a project.
    I do not necessarily want to repeal an environmental or 
coordination requirement, but all of us have to make the whole 
process more efficient.
    In today's economy, delaying a project is synonymous with 
killing it. Killing a project in this way means loss of 
economic opportunity and lost jobs.
    I look forward to hearing from the Corps of Engineers as to 
how they plan to work with Congress to streamline this costly 
and broken study process.
    I look forward to the testimony from the witnesses, and I 
yield and recognize the ranking member, Mr. Bishop, for any 
statement he might have.
    Mr. Bishop. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing on the President's fiscal year 2013 
budget request for the Army Corps of Engineers.
    The past year has been challenging with the Mississippi and 
Missouri floods, the tropical storm impacts along the eastern 
seaboard, and the continual challenge to keep our inland 
waterways accessible and our harbors deep enough.
    Over the last several weeks, we have held hearings focused 
on the failing state of our waste and drinking water systems.
    It is clear that we need to reinvest in our country's water 
infrastructure in a way that will allow our country to provide 
for our citizens and to protect our investments in our 
waterways, harbors and dams.
    Historically, this committee has provided direct guidance 
to the Corps of Engineers, identifying specific projects that 
we felt should be a priority for the agency.
    Today, with our ability limited, we are dependent upon the 
Corps internal decisionmaking process to determine for us where 
the priorities are.
    I, for one, am more than a little uncomfortable with this, 
and I hope today that we can get information from our witnesses 
on how priorities and workloads are made.
    Our subcommittee has a fiduciary and administrative 
responsibility to oversee and review the Federal agencies that 
are under our jurisdiction.
    Without this oversight, the Corps priorities, focus, and 
resulting budgets are not put through the rigorous review that 
the American public expects us to perform.
    Our committee has oversight over all or portions of 7 
agencies out of 26 that are involved in managing the water 
resources of America.
    The Army Corps of Engineers is the largest water 
engineering agency in the country. In that role, the agency has 
supported the maintenance of our coastal and inland harbors and 
waterways, constructed and maintained locks and levies that 
allow our rivers to be used for commerce and recreation, 
maintains coastal barrier islands to protect our coast lines, 
and certain levies that protect our cities and farm lands, 
operates and maintains 693 dams, 75 of them providing renewable 
hydropower production, and leads the way in providing 
engineering support to our troops and providing water security 
around the world.
    We are going to hear today that once again the budget of 
the Army Corps of Engineers is being reduced. I also am not 
happy about that.
    This Congress has continuously issued the mantra of ``Do 
more with less.'' In my estimation, we are now at a critical 
threshold where these reductions are jeopardizing the ability 
to sustain our infrastructure and protect our citizens.
    We are either going to have to step up and have a 
conversation about investing for the future or we need to 
deauthorize certain projects and programs or otherwise transfer 
programs to protect beneficiaries.
    The current approach of ``fix it as it fails'' is costing 
us more money and is very inefficient from an engineering 
perspective.
    We have a tremendous investment in our country's water 
navigation, electrical grids and irrigation systems. As we 
review the Corps budget, we should keep in mind this investment 
and make sure we are not impulsively cutting important and 
vital programs without regard for the impacts, and instead, 
look to ensure the decisions we are making are focused on 
protecting these investments and being smart with our 
allocation of funding.
    The President's 2013 budget concentrates funding in three 
primary areas, commercial navigation, flood and coastal storm 
damage reduction, and environmental programs, while continuing 
to support the responsibility for hydropower generation, water 
supply services, environmental stewardship, and recreation.
    In terms of percentages, 37 percent is going toward 
navigation; 30 percent to flood risk reduction, and 33 percent 
to environmental, hydropower, and regulatory programs.
    The proposed fiscal year 2013 budget for the Civil Works 
Program is $4.73 billion, which is 5.4 percent below the 
appropriations for fiscal year 2012.
    This continues a disturbing trend. When we compare this 
budget to fiscal year 2010, we see a 13.1-percent reduction and 
a 3.5-percent reduction from fiscal year 2011.
    This 2013 budget request will see funds reduced yet again 
in the investigation, construction, operations and maintenance 
of Mississippi River and tributaries, and WRDA accounts.
    I apparently am not understanding this concept of doing 
more with less. In my opinion, we are clearly going in the 
wrong direction and we are clearly doing less with less.
    As we compare the administration's budget proposals through 
2017 with the proposed budget from Representative Ryan for the 
Natural Resources and Environment Function 300 Budget 
Authority, we get an idea of what doing more with less looks 
like.
    Chairman Ryan's budget cuts an additional 18.5 percent from 
the administration's request by 2017. We all get to vote on 
that proposal this coming Thursday.
    I applaud the Corps for working hard to reduce overlap and 
increase internal efficiencies, but I am concerned that we are 
risking substantial increased costs to the Federal Government 
and the public by not maintaining critical program assets, 
including the maintenance of the human capacity in water 
leadership.
    There are two key areas I would like us to focus on. First, 
addressing the backlog of authorized projects, and second, 
addressing the needs of the Harbor Maintenance and Inland 
Waterways Trust Fund programs.
    The backlog of authorized but unconstructed Corps projects 
is rightly or wrongly restricting our ability to focus on new 
projects.
    It was used as a pretext for Former President Bush's veto 
of the Water Resources Development Act of 2007, as well as a 
reason for not moving forward on a new WRDA in the last 
Congress.
    The Corps calculates that prior to WRDA 2007, there was an 
unconstructed backlog of $60 billion worth of previously 
authorized projects, some of them dating back to the 1960s and 
earlier. This backlog needs to be carefully reviewed and 
appropriate actions implemented.
    With respect to the Harbor Maintenance Trust Fund, we need 
to work together with industry and the administration to fix 
the problem of fully funding the Trust Fund to make our harbors 
and waterways competitive.
    We have to get not only the largest harbors ready for the 
future of shipping but also provide critical dredging to the 
medium and small harbors that support our local and tribal 
fishing communities, provide for cost effective local commerce, 
and support the ability of the Coast Guard and other law 
enforcement entities to launch and protect our coast lines and 
waterways.
    Similarly, for projects funded out of the Inland Waterways 
Trust Fund, I recognize the efforts of the administration to 
prioritize the highest use projects within the constraints of 
available funding from the Trust Fund.
    However, in my view, this subcommittee should not be 
complacent when the greatest limiting factor on how much can be 
spent on inland waterways projects is the available revenues 
from a 20-year-old user fee.
    Voices from both sides of the aisle have said that the 
current inland waterways model is broken. It is time for this 
subcommittee to lead on renewing investment in these critical 
projects while ensuring that this increased investment does not 
come at the expense of other Corps mission areas.
    Mr. Chairman, this subcommittee has a responsibility to ask 
the tough questions of the leaders of the agencies we oversee.
    We are here to ensure that our investments are being 
properly managed and appropriately with an eye to the future.
    We do have concerns that many of the cuts being made will 
reduce the Corps effectiveness.
    In my opinion, many of the cuts proposed in the President's 
budget are taking the Nation down a path that will ultimately 
result in increased costs and the loss of critical 
infrastructure capacity.
    This concern is amplified by several orders of magnitude if 
we go the route of the massive additional cuts proposed by 
Chairman Ryan.
    Before I yield back the balance of my time, Mr. Chairman, I 
would like to take a moment to congratulate General Temple. My 
understanding, General, is you have announced your retirement 
after 37 years of phenomenal service to this country.
    Thank you, sir, very much for your service. I yield back 
the balance of my time.
    Mr. Gibbs. Any other Members? Yes, go ahead.
    Mrs. Napolitano. Thank you, Mr. Chairman. Thank you and 
Ranking Member Bishop for holding this hearing.
    To Secretary Darcy and General Temple, thank you for the 
outstanding staff you have in the Los Angeles District. We meet 
regularly with Colonel Toy, your District Commander.
    It is a great partner for my communities, and I want to pay 
very special attention to your Deputy District Engineer who is 
retiring this summer, who has worked with my staff since I came 
to Congress in 1999, always returns phone calls, and is 
responsive and collaborative with my office, the cities and the 
water agencies I represent, and has managed the major projects 
in our region, the restoration of the Los Angeles and San 
Gabriel Rivers, and that is Brian Moore, your Deputy District 
Engineer.
    The flood control environmental restoration and water 
replenishment projects that he has worked on will benefit 
several million people in southern California for many, many 
years to come.
    I do agree with my ranking member about the budget cuts 
that are going to not allow us to do the work that protects a 
lot of people in California and the rest of the Nation.
    Whittier Narrows and the Santa Fe Dam continue to be 
concerned with the slow pace at which the Corps is funding and 
implementing the Whittier Narrows and the Santa Fe Dam water 
conservation projects. That means the ability for us to store 
more water and be able to have protection for the communities, 
the millions of people that both of them serve.
    The finalization of the Whittier Narrows Dam's safety study 
is funded in the Army Corps budget. Hopefully, the Corps will 
finish the study quickly and make any changes that need to be 
made to increase the conservation pool.
    The Corps has not budgeted funds to perform the dam safety 
study on the upstream Santa Fe Dam, and it is similar to 
Whittier Narrows, and would increase the water capacity by 
1,100 acre-feet annually, much needed water, especially with 
drought cycles. This water is currently going to the ocean and 
is being lost to us.
    I do urge the Corps to quickly work on the Santa Fe Dam 
study in order to save that water and replenish our groundwater 
aquifer.
    On the Harbor Maintenance Trust Fund, the Corps budget 
continues to be unfair to those ports. I cannot find another 
program in the entire Federal Government that has as an 
equitable Harbor Maintenance Trust Fund as the ports of Los 
Angeles and Long Beach.
    It provides $265,000 to both ports for harbor maintenance 
while the Harbor Maintenance Trust Fund took in $220 million 
from both ports.
    This means the Port of Los Angeles will receive less than 
.01, I repeat, not 1 percent, not 10 percent, .01 percent of 
the funds they put into the system. They receive $1 for every 
$1,000 they put into the system.
    The further tragedy is that they are diverted to competitor 
ports and shippers of Los Angeles and Long Beach.
    Mr. Chairman, this is as if the Government taxed McDonald's 
to build bigger Burger Kings. We must correct and fix this 
inequity.
    There should be a minimum amount appropriated to the ports 
where the shippers pay into that fund and expand the inwater 
uses of the Harbor Maintenance Trust Fund.
    The Fund should pay 100 percent of the cost of harbors over 
45 feet in depth, and should pay for the construction in 
dredging the harbor.
    There are issues that I certainly would want to go over, 
but I do want to ensure that we continue to work with the Army 
Corps so that we can not only fund it properly so they can do 
their job, but also be able to ensure that it protects and 
continues to provide safety for the areas with Mother Nature 
coming in and throwing us all kinds of different weather 
throughout the United States.
    With that, I yield back the balance of my time, and I thank 
you.
    Mr. Gibbs. Any other Members? Go ahead, Representative 
Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. Good morning, 
Chairman Gibbs, Ranking Member Bishop, and members of the 
subcommittee.
    I want to thank you for convening this hearing today to 
discuss the administration's fiscal year 2013 budget priorities 
for the U.S. Army Corps of Engineers.
    I would also like to thank our witnesses for being here 
today to highlight the priorities of the Army Corps in this 
fiscal year.
    The Civil Works Program of the Army Corps of Engineers 
plays a critical role in developing, maintaining, and restoring 
important water infrastructure projects in the U.S. and abroad.
    Even in this difficult fiscal climate, as my colleagues 
have already alluded to, it is critical that the Army Corps is 
provided the adequate resources to protect our Nation's 
investments in water infrastructure projects and to keep 
America safe.
    In the full year 2013 budget proposal, the administration 
has made tough choices to the program to ensure that the 
Government is living within its means. We just need to make 
sure that is in the right area.
    I want to start off by thanking Assistant Secretary Darcy 
and her staff for meeting with me to discuss some of the Corps 
projects in and around my District.
    Los Angeles and the Corps are fortunate to have Colonel Toy 
heading our Los Angeles District Office and the entire staff, 
some of which are here today.
    Three issues I would like to put before the Committee that 
have been great interests of mine, and I look forward to 
working with my colleagues as this budget goes forward.
    One, to make the Committee aware that in November 2011, we 
had an ocean bluff collapse in the Paseo del Mar area. The city 
of Los Angeles is currently conducting a study to determine the 
cause of the landslide. However, initially, the reports are 
saying that it has to do with beach erosion.
    The study is expected to be completed, and I am looking 
forward to working with the Corps and their expertise to assist 
us through programs like Continuing Authorities Project Section 
103, that could help in this particular area.
    I would like to discuss with the chairman and the ranking 
member how we might fund the Continuing Authorities Project 
Section 103.
    Second of all, we have a situation with the Corps dating 
back to 2006, looking at the Los Angeles River, and for those 
of you who had an opportunity to go there, although it is not 
as grand as some of the rivers in your community, it is about 
as big as it gets in mine.
    The Corps has been looking, needs $1.6 million to complete 
that study, which would have an essential element of 
restoration.
    While no funding is currently included in the President's 
fiscal year budget, it is important that the study have an 
opportunity to move forward, and it is my understanding they 
would be eligible out of the Statement of Managers that 
accompanies H.R. 2055, the Consolidated Appropriations Act of 
Fiscal Year 2012.
    In addition to the restoration of the Los Angeles River, it 
is critical to the continued economic development of our city.
    One last point about that. We are also very concerned about 
the Los Angeles River ecosystem restoration feasibility study 
that I will be asking further questions on in this hearing.
    Last but not least, in the community I represent, we have 
the Long Beach Breakwater, which was established to enable the 
vessels to come in, particularly in time of war. Now, the Corps 
has looked at that initially and considered the possibility of 
a reconfiguration.
    I would like to discuss with the Corps how the projects are 
selected and how we might move forward on some of these ideas, 
which would certainly promote navigation, preserve coastal 
zones, and protect property and human life.
    Once again, I thank our witnesses for being here today, and 
I look forward to hearing your testimonies. I yield back the 
balance of my time.
    Mr. Gibbs. Representative Crawford, do you have a 
statement?
    Mr. Crawford. Thank you, yes, Mr. Chairman. Thank you. I 
real quickly want to thank you, Secretary and General, for 
being here.
    The Mississippi River, of course, runs along the eastern 
border of my District. The Mississippi River and Tributaries 
Project employs a variety of engineering techniques including 
an expansion levy system to provide flood protection coverage 
for my District and the entire population along the Mississippi 
River and its tributaries.
    The Mississippi River and Tributaries Project has proven to 
be one of the wisest investments by our Federal Government, 
preventing over $350 billion in flood damages on an investment 
of under $14 billion. Never has the value of this investment 
been more evident than last year during the historic flooding 
along the Mississippi River.
    The Mississippi River and Tributaries Project performed as 
designed, despite rainfall exceeding 600 to 1,000 percent of 
the normal average rainfall in a 2-week period between April 
and May.
    As a result, the MRT Project protected over 10 million 
acres of land and prevented more than $110 billion in damages 
in 2011 alone.
    This success can be attributed to decades worth of lessons 
learned along the Mississippi.
    Last year under the American Recovery and Reinvestment Act, 
Congress funded the MRT Project at $375 million. The President 
has requested $234 million for this project in his fiscal 2013 
budget.
    I am concerned that the level of funding in the President's 
budget for the MRT Project will not adequately fund and 
maintain this program so that it can continue to protect 
communities along the Mississippi from devastating floods.
    Rather than take the success of this project for granted, 
we should look to last year's flooding as another testament to 
just how important this project has been.
    I am committed to working with the Army Corps of Engineers 
to ensure that the Mississippi River and Tributaries Project is 
adequately funded.
    Mr. Chairman, I yield back.
    Mr. Gibbs. Thank you. At this time, I want to ask unanimous 
consent that Mr. Fleischmann from Tennessee be allowed to join 
the subcommittee today. So ordered.
    At this time, I would like to welcome our two witnesses. 
Our first witness is The Honorable Assistant Secretary of Army 
Civil Works, Ms. Jo-Ellen Darcy, and our second witness is 
Major General Temple.
    I, too, want to congratulate you and commend you on your 37 
years of military experience, and wish you many, many years in 
the future of a well-rounded retirement and enjoyment.
    At this time, Ms. Darcy, the floor is yours.

 TESTIMONY OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
 ARMY (CIVIL WORKS), UNITED STATES DEPARTMENT OF THE ARMY; AND 
 MAJOR GENERAL MERDITH W.B. TEMPLE, ACTING CHIEF OF ENGINEERS, 
             UNITED STATES ARMY CORPS OF ENGINEERS

    Ms. Darcy. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee.
    Thank you for the opportunity to present the President's 
fiscal year 2013 budget for the Civil Works Program of the Army 
Corps of Engineers.
    I am Jo-Ellen Darcy, Assistant Secretary of the Army for 
Civil Works, and I will summarize my statement and ask that my 
complete statement be entered into the record of the hearing.
    The President's 2013 budget provides $4.7 billion for the 
Civil Works Program. This is $100 million above the President's 
2012 budget for Civil Works.
    The budget reflects the administration's priorities through 
targeted investments in the Nation's water resources 
infrastructure, including dams and levies, to address flood 
risks, navigation projects and support of both domestic and 
global trade, especially at coastal ports that support the 
greatest national economic activity, restoration of major 
ecosystems affected by past water resources development and 
support of administration initiatives such as America's Great 
Outdoors and the Clean Water Framework.
    The budget also supports programs that contribute to the 
protection of the Nation's waters and wetlands, the generation 
of low-cost renewable hydropower, the restoration of certain 
sites contaminated as a result of the Nation's early atomic 
weapons development program, emergency preparedness and 
training to respond to natural disasters, and recreation, 
environmental stewardship and water supply storage at existing 
projects that are owned or operated by the Corps of Engineers.
    The budget funds a number of activities to completion, 
including 5 flood risk management projects, 3 navigation 
projects, 1 hydropower mitigation project, and 18 studies.
    The Civil Works budget includes funding for three high-
performing construction new starts, six study new starts, and a 
new activity in the operations and maintenance account to 
reduce the vulnerability of Civil Works projects to extreme 
natural events.
    The budget also includes funding to evaluate the potential 
for as well as encourage the use of nonstructural alternatives 
during post-disaster recovery decisionmaking while also 
leveraging the expertise of intergovernmental teams known as 
``Silver Jackets'' to support States and communities as they 
develop and implement actions to reduce flood risks.
    The budget includes the highest amount ever budgeted for 
use of receipts from the Harbor Maintenance Trust Fund to 
maintain coastal channels and harbors.
    Inland waterway capital investments and the construction 
account are funded at the maximum amount that is affordable 
within the projected Trust Fund revenue under existing law.
    Last September, President Obama transmitted to Congress a 
proposal to modernize financing of capital investments on the 
inland waterways through establishing a new vessel user fee to 
supplement the existing fuel tax.
    The administration will continue to work with Congress and 
stakeholders to enact a mechanism to increase revenues for this 
Trust Fund.
    The 2013 budget provides $532 million for dam and levy 
safety activities, including $491 million for dam safety 
activities in both the flood risk management and the navigation 
programs, as well as $41 million to continue the comprehensive 
levy safety initiative.
    The Army continues to work to modernize the Civil Works 
planning program. Proposed changes are aimed at dramatically 
shortening the time and costs for completion of 
preauthorization studies while retaining the quality of the 
analyses.
    The budget again includes $3 million for the Veterans 
Curation Project, which provides vocational rehabilitation and 
innovative training for wounded and disabled veterans, while 
achieving historical preservation responsibilities for 
archeological collections administered by the Corps of 
Engineers.
    This program will contribute to the goals of the 
President's recently announced Veterans Job Corps.
    In summary, the 2013 budget for the Army Civil Works 
Program is a fiscally prudent, appropriate level of investment 
that will generate jobs, contribute to a stronger economy, and 
continue progress on important water resources investments that 
will yield long-term returns for the Nation and its citizens.
    Mr. Chairman and members of the subcommittee, I look 
forward to working with you in support of the President's 
budget.
    Thank you.
    Mr. Gibbs. Thank you.
    General Temple, welcome. The floor is yours.
    General Temple. Good morning, Mr. Chairman and members of 
the subcommittee.
    Mr. Gibbs. General, make sure your mic is on.
    General Temple. Can you hear me now?
    Good morning, Mr. Chairman and members of the subcommittee. 
I am Major General Bo Temple, Acting Chief of Engineers, and I 
am honored to be here with Ms. Darcy to testify regarding the 
President's fiscal year 2013 budget for the Civil Works 
Program.
    The Corps is wrapping up an unprecedented period of 
construction and project execution. Over the past 5 years, we 
provided $12 billion in BRAC-related construction, $7 billion 
of American Recovery and Reinvestment Act work, in both our 
Military and Civil Works Programs combined, and about $14 
billion of Gulf Coast recovery work.
    In 2011, over 2,000 Corps employees deployed in response to 
multiple disasters, including Midwest tornadoes and flooding in 
the Missouri, Mississippi, and Suarez River Basins, and also 
throughout the Northeast due to Hurricane Irene and Tropical 
Storm Lee.
    Our systems performed in saving lives and preventing 
billions in damages. However, as you are aware, many of our 
projects were damaged, and we are currently working to address 
these systems, utilizing the $1.7 billion Congress appropriated 
for this purpose.
    The fiscal year 2013 budget includes $4.7 billion to fund 
Civil Works activities within the Corps three main water 
resources missions, commercial navigation, flood and storm 
damage reduction, and aquatic ecosystem restoration.
    The budget includes $102 million for these and related 
activities in the Investigations Account and $1 million in the 
Mississippi River and Tributaries Account.
    It funds 81 continuing studies and 6 new studies. It also 
includes over $10 million for work on proposals to deepen seven 
U.S. ports.
    The budget includes $1.47 billion in the Construction 
Account and $99 million in the MR&T Account, funding 101 
construction projects including 57 flood and coastal storm 
damage reduction projects, 5 of which are budgeted for 
completion, 23 commercial navigation projects, 19 aquatic 
ecosystem restoration projects, and mitigation associated with 
2 of our hydropower projects.
    The Operation and Maintenance Program includes $2.53 
billion and an additional $134 million under the MR&T Program 
with a focus on the maintenance of key commercial navigation, 
flood and storm damage reduction, hydropower, and other 
facilities.
    The Corps will continue to implement actions to improve its 
planning program performance through planning modernization 
efforts focusing on how best to modernize the planning program 
to more effectively address water resources challenges.
    The Corps always strives to improve its efficiency and 
effectiveness. In fiscal year 2013, the Corps will further 
expand the implementation of a modern asset management program, 
using the larger portion of its funds for the more important 
maintenance work, while implementing an energy sustainability 
program that pursues major efficiencies in the acquisition and 
operations of its information technology assets, as well as 
finalizing the reorganization of the Corps acquisition 
workforce.
    The fiscal year 2013 budget provides $30 million for 
preparedness for floods, hurricanes, and other natural 
disasters, including about $3 million in support of the Corps 
participation in levy safety and other flood mitigation 
initiatives, such as the Silver Jackets program, to provide 
unified Federal assistance in implementing flood and coastal 
storm damage reduction solutions.
    Internationally, the Corps of Engineers continues to 
support the mission to help Iraq and Afghanistan build 
foundations for democracy, freedom and prosperity.
    In Iraq and Afghanistan, we completed or closed out 
hundreds of projects in support of the host nations and 
coalition forces. This critical infrastructure and our capacity 
building efforts will play a key role in ensuring stability and 
security for these nations.
    The Corps remains committed to change that ensures an open 
transparent and performance based Civil Works Program while 
remaining focused on consistently delivering innovative, 
resilient risk informed solutions to the Armed Forces of the 
Nation.
    Thank you, Mr. Chairman and members of the subcommittee. 
This concludes my statement, and I am happy to answer any 
questions you may have.
    Mr. Gibbs. Thank you. I will start off the first round of 
questions.
    Secretary Darcy, I just want to start off by asking about 
the Keystone Pipeline that has been in the news a lot. Can you 
tell me when TransCanada applied to the Corps of Engineers for 
their Section 404 permit to construct the pipeline?
    Ms. Darcy. Yes, Congressman. TransCanada did apply for 
Section 404 permits for that pipeline. However, when the 
decision was made that the pipeline was not going forward, when 
the State Department made that decision, we suspended 
consideration of those permits.
    However, we are anticipating new permits for a portion of 
that project that would go from Cushing, Oklahoma, to Port 
Arthur, I think, in Texas. We have yet to receive those new 
applications.
    Mr. Gibbs. The status of all the 404 permits are kind of on 
hold right now for the pipeline across the country?
    Ms. Darcy. For those 404 permits that the Corps of 
Engineers got for the larger pipeline, they are suspended 
because it is no longer under consideration.
    However, this new portion that goes from--a portion of the 
project that goes from Cushing to Texas, we are anticipating--
we have three districts that are involved and anticipating 
receiving those applications.
    Mr. Gibbs. Can you be more specific on the time period when 
they applied for the first 404 permit? Was that several years 
ago?
    Ms. Darcy. I do not know. I can look in my notes and see if 
I have the exact date they applied for it.
    Mr. Gibbs. Any idea? Was it 2 years ago, 3 years ago?
    Ms. Darcy. I would be guessing. Let me ask.
    Mr. Gibbs. Can you get that for the record for us?
    Ms. Darcy. Yes, sir.
    Mr. Gibbs. Thank you. I am trying to think, when the Corps 
completes its field work on these permits, during a typical 404 
permit process, how long after the field work has been 
completed is the permit issued normally?
    Ms. Darcy. What would be our average time?
    Mr. Gibbs. Yes.
    Ms. Darcy. From application to actual granting the permit?
    Mr. Gibbs. When you do the field work, the work you have to 
do when they apply for the permit, the field work is completed, 
how long is it normally before you issue the permit?
    Ms. Darcy. General Temple is telling me 60 to 120 days, but 
I would want to ask staff about what the average is and what 
statutory obligations we have to meet a certain timeline. I 
think we do have a statutory requirement to turn around some 
permits from the day we receive them until we grant or 
disapprove them.
    I do not think it is for all 404s, but I would like to 
clarify that for you.
    Mr. Gibbs. OK. What does the President mean when he said he 
asked the Corps of Engineers to expedite the process? I think 
he just referred to that recently.
    Ms. Darcy. That is correct. When he was in Oklahoma talking 
about this project, I think what he wants us to do is take a 
look at those as soon as we receive them, and we have all three 
districts standing ready, and we are getting daily reports from 
our districts as to what permits are coming in.
    As I say, we have not gotten new applications for this 
portion of the project, but we are anticipating them, and have 
had some preapplication meetings with the local sponsor.
    Mr. Gibbs. He is not referring to the permits that were 
already applied for earlier?
    Ms. Darcy. No, sir, because those were part of the larger 
project. Because it is part of a new project and has a new 
purpose and need, which has to be demonstrated in the 
application, we have to look at these new permits from that 
standpoint.
    Mr. Gibbs. Even under an expedited process, what would the 
timeline be then?
    Ms. Darcy. Again, I would be guessing. Well, it would all 
depend on the scope of the project, whether we would have to do 
an individual permit or a nationwide permit.
    Often times, a nationwide permit takes less time than an 
individual permit. That will all depend on the scope of the 
application, which authority we can use.
    Mr. Gibbs. I will move on to another area. The Corps of 
Engineers is involved in major permitting actions in the 
phosphate mining underway in Florida, along with an area wide 
phosphate mining environmental impact statement that is being 
conducted by the Corps.
    While I understand and agree with the need to protect the 
environment, other parts of the world such as Morocco, China, 
and Saudi Arabia are becoming more competitive as domestic 
producers of phosphate.
    While the United States is blessed with its natural 
resources of phosphate, because of the bureaucracy involved 
with mining permitting processing in the United States, many 
companies are being forced to import raw materials from other 
places.
    Why does the administration not think it would be easier 
for American companies to do business overseas for what they 
could do right here in America, particularly when facing such a 
difficult, pressing economic and trade concerns?
    Should we not expedite these types of environmental studies 
and permit processes so they can keep their businesses here in 
this country where it belongs?
    What I am asking is why permit delays in Florida have taken 
so long. They have to actually bring in the raw materials to 
process, to produce fertilizer, from offshore.
    Why can we not move that process further, faster, expedite 
it, so they do not have to do that?
    Ms. Darcy. Congressman, I am assuming that they are needing 
to get 404 permits under the Clean Water Act for the phosphate 
mining in Florida.
    Mr. Gibbs. Correct.
    Ms. Darcy. I am not familiar with these permits in 
particular, but any kind of expedited process, we would have to 
always consider what the requirements of the law are as far as 
what kind of review is needed for that activity.
    Mr. Gibbs. I am just concerned we are going to lose our 
infrastructure to produce this valuable fertilizer for American 
agriculture and be more dependent offshore like we are for some 
other things, and we need to take that into account.
    My time has ran out. I yield to Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman. Secretary 
Darcy, General Temple, thank you for being here.
    Let me just start by saying more than one word of praise 
for the Army Corps. I represent a district that has water on 
three sides, several hundred miles of coast land, four 
navigatable inlets that are maintained by the Army Corps, and I 
will say that each of my interactions with every single person 
from the Army Corps that we have encountered has been at the 
highest possible level of professionalism.
    I think that is a tribute to the Corps, it is a tribute to 
your leadership, and I thank you for that.
    I want to take a somewhat broader view right now. The 
mantra of this committee has been ``Do more with less.'' I 
think that looks great on a bumper sticker. When you translate 
it into action, I think it becomes a little more difficult.
    I have not, for example, been able to figure out how you do 
more dredging with less money. I have not been able to figure 
out, and perhaps if you have, tell us, how you put more sand on 
beaches with less money.
    I am concerned about the President's budget request, very 
frankly. I am even more concerned about the budget proposal 
that we are going to vote on later this week, which in many 
ways will drive the conversation going forward, and I am 
referring to Chairman Ryan's proposal, which as I said, cuts 
Function 300 by 18.5 percent over the next 4 years.
    I guess my question--this calls for conjecture, obviously, 
but my own view is that the Corps, and I will come back to this 
in a minute with some specificity, is struggling to accommodate 
the President's budget request.
    My question is how would the Corps respond or to what level 
would you be able to--to what extent would you be able to 
accommodate an 18.5 percent cut over a multiyear period, if 
that were to ever become the budget of the Corps?
    Ms. Darcy. It would certainly be a challenge, Congressman 
Bishop. As you noted, the ``Do more with less'' bumper sticker 
is something, but we are challenged to do the best we can with 
the resources we have, and I think going forward, we would have 
to be even more efficient than we are now.
    We are looking to efficiencies in order to accommodate the 
budget that we have.
    Mr. Bishop. If I may, is it not reasonable to assume that 
this backlog of projects that we have now that is some $60 
billion--is it not reasonable to assume that backlog is only 
going to grow if we are cutting available funding by 18.5 
percent?
    Ms. Darcy. Yes.
    Mr. Bishop. OK. Let me go to a specific which I hope all of 
my colleagues find troubling, although I say I recognize it is 
with the fact that this is not an action that I think is 
imposed upon you by reality.
    My understanding is the Corps has identified 16 recreation 
areas that will be closed entirely, and another 135 recreation 
areas in 23 States that will be partially closed. This is 
because the Corps simply does not have the funds available to 
keep them open.
    Is this correct?
    Ms. Darcy. Yes.
    Mr. Bishop. This is a priority decision that the Corps is 
making, that is in effect imposed upon the Corps by the fiscal 
realities that we are imposing on you? Is that about right?
    Ms. Darcy. About right.
    Mr. Bishop. General?
    General Temple. Yes, sir.
    Mr. Bishop. This is alarming. Let me go to the backlog of 
projects. As I said, we have a backlog of some $60 billion 
worth of projects. This is pre-WRDA, 2007.
    My question is--we all know the fiscal reality that we are 
in. There is no indication it is going to get any better. In 
fact, there is a pretty substantial indication it is going to 
get worse.
    What do we do with those? Do we begin to take projects off 
the list and say we were only kidding, we did the 
reconnaissance study, we did the feasibility study, but we are 
now not going to proceed to construction?
    How do we prioritize those? How is Congress involved in 
that prioritization or individual Members?
    A lot of questions.
    Ms. Darcy. Congressman, I think we need to look at the 
backlog with a view toward the future, and that is does that 
project that was authorized--several of these projects were 
authorized a long time ago, do not have local support any 
longer.
    Since 1986, we have had to have a local sponsor to cost 
share a project. Some of these projects were authorized before 
cost sharing.
    Do they still meet the needs of the community? Do they 
still have a project purpose that is supportable, and if not, 
we need to come up with a system to deauthorize them.
    We have a current system of deauthorization that you are 
familiar with, if a project has not gotten any funding for 5 to 
7 years, I think it is still 5 years, that it goes on a list 
for deauthorization that is approved by the Congress.
    I think we need to look beyond that, quite frankly, because 
we have projects out there that just not only would not work 
any more but do not have the support. If we can get those off 
the books and look toward the future and look at the assets 
that we have and that we still have to fund.
    Mr. Bishop. This is my last question, Mr. Chairman. Do you 
have an internal process in place that is working through this 
backlog, and if the answer is no, can I urge you to put in 
place an internal process?
    Ms. Darcy. We are beginning to look at that, Congressman. 
We have started to evaluate just the whole universe that is out 
there. We are looking at all of our existing authorities that 
we have, not only for authorizations for deauthorizations, and 
how we might be able to use that.
    We are also trying to get a handle on just what that 
universe is, not only for the $60 billion that you talked 
about, but what else is out there, ones that are partially 
constructed, all of that.
    We are doing that. I think we are going to need to work 
with this committee and the Congress in order to come up with a 
way to implement a deauthorization process that gets us to 
where we need to be, which is not having a $60 billion backlog.
    Mr. Bishop. Thank you very much. Thank you, Mr. Chairman. I 
yield back.
    Mr. Gibbs. Mr. Shuster?
    Mr. Shuster. Thank you, Mr. Chairman. Secretary Darcy and 
General Temple, welcome. General, wish you the best in your 
retirement.
    General Temple. Thank you, sir.
    Mr. Shuster. Thanks for your service to our Nation.
    My question deals with TransCanada and their permits. I 
wanted to know when did they apply for the 401 permits to 
construct the Keystone Pipeline, and can you share with the 
Committee the status of all the 401 permits related to that 
pipeline?
    Ms. Darcy. Congressman Shuster, the permits that were 
requested by TransCanada for the Keystone Pipeline were--I am 
asking staff to get the exact date they were requested--once 
the project was determined to not go forward, when the State 
Department made that determination, we suspended consideration 
of those permits.
    We also, however, are anticipating new permit applications 
for a portion of that project, from Cushing, Oklahoma, to 
Texas.
    Mr. Shuster. Speaking of that pipeline, what does it mean 
to expedite, when the President said he is going to ask the 
Corps to expedite the permit? What does that entail?
    Ms. Darcy. He is going to ask us to consider them as soon 
as we receive them. As I said, we have not received them yet, 
but once we do, depending on the scope of the permit, what 
exactly the purpose and need of the permit is, we will 
determine which kind of permit is being applied for, either a 
nationwide permit or an individual permit.
    A nationwide permit in many instances is a faster process 
for processing than an individual permit.
    Once we get those applications, we will be able to make----
    Mr. Shuster. What is the typical timeline for permitting 
those two types?
    Ms. Darcy. I cannot give you an exact--I will get you an 
exact answer. What is called the ``nationwide general permits'' 
are usually more expeditious than individual permits, because 
it is a smaller scope usually.
    Mr. Shuster. Can you give me the numbers compared to a 
typical expedited permit? What is the timing difference? Can 
you put a percentage on it? Thirty percent faster? Sixty 
percent faster?
    Is that something you can get back to me?
    Ms. Darcy. I can. I do not want to guess.
    Mr. Shuster. I know I have seen the numbers out there. If 
you take all the permits out there that are in review or going 
to review, there is $240 billion worth of investment out there.
    My question would be to the President and to the Corps, why 
do we not expedite everything and get $240 billion worth of 
work to create jobs and get the economy moving.
    Again, I would ask you to get those numbers for me.
    Ms. Darcy. Yes, sir.
    Mr. Shuster. Typical versus expedited, I appreciate that.
    Also, under the WRDA, 2007 WRDA bill, Congress authorized 
the Corps to utilize the independent peer review for some of 
its projects.
    A couple of those projects, Savannah; Freeport, Texas, 
specifically, it was supposed to be a 45-month feasibility 
study. It is now at 115 months.
    Also, when you read through it, there has been almost a 
dozen changes, major policy changes to order the port to do.
    I understand also the Mobile, Alabama District reviewed it 
and said one thing and then the Jacksonville District came in 
and not understanding the economics of the Gulf Coast, gave a 
very different assessment of the projects.
    When you see that, it frustrates not only us in Congress 
but the American people.
    What is the Corps doing to streamline this? It was supposed 
to help, using these peer reviews to help the process along. It 
seems like in this one, and in Savannah, which I saw, it is has 
caused great upheaval and slowed the process down and costing 
millions of dollars more than it should have.
    If either one of you could take that.
    General Temple. Yes, sir. There is no question that studies 
have taken longer than anyone desires. We have already 
instituted some measures to address this issue by reforming our 
planning process, and in fact, transforming our Civil Works 
process as well.
    With respect to Freeport itself, using an independent 
technical review, actually it helped us refine the model that 
will allow this project to move forward reasonably 
expeditiously here in the future, sir.
    Mr. Shuster. I think you understand and we all understand 
time is money. It seems the longer these projects go, the more 
expensive they get.
    Finally, just a quick question on design/build. What is 
your view of design/build projects? I have seen a couple of 
them. Just last week, I was in Tennessee, and they did a 
design/build on a roadway.
    I know there are some in Congress that do not want to move 
to that model, but it seems to me time is money and a design/
build is a positive way to do.
    If I could get quickly your response as to your view on 
design/build projects.
    General Temple. Sir, we use a number of acquisition 
techniques to provide construction and related services, and 
design/build is definitely in our portfolio.
    You may recall, sir, the hurricane storm sewage barrier 
nearly 2 miles long down in New Orleans was the largest design/
build project ever built by the Corps, and it was a Civil Works 
project.
    We do use it, sir.
    Mr. Shuster. That methodology, design/build, are you 
increasing that in your portfolio?
    General Temple. Yes, sir. We have used it quite frequently 
here lately.
    Mr. Shuster. Great. Thank you, Mr. Chairman.
    Mr. Gibbs. Representative Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair.
    Secretary Darcy, as you heard my opening statement, I 
talked about the Harbor Maintenance Trust Fund inequity in 
ports at Long Beach and Los Angeles, and that 1 percent out of 
every $1,000 they pay into the system goes back, in order 
words, $265,000.
    How or what can be done to address this inequity?
    Ms. Darcy. Congresswoman, the money that comes in, as you 
know, comes in from the tax on exports. The spending out from 
the Trust Fund goes to those harbors that are in need of the 
most dredging and maintenance money.
    The priorities are based on that high performance of those 
ports. There is not a one-for-one, dollar-for-dollar----
    Mrs. Napolitano. Understood, but .01-percent return is so 
unfair. It just does not make sense. These are the ones that 
bring in 40 to 50 percent of the Nation's goods through those 
ports. We need to be able to keep them maintained so we can 
continue to compete against other ports.
    Ms. Darcy. The allocations from the Trust Fund, as I say, 
are based on the greatest need, but I think what we can do is 
just be able to allocate the resources that we have to the 
greatest need.
    Mrs. Napolitano. I can understand that, but for how long 
can this keep going on?
    Ms. Darcy. I guess we will just have to evaluate with each 
year as to how we are going to----
    Mrs. Napolitano. I would appreciate that, Ms. Darcy. We 
will talk about this.
    The second issue on this particular Trust Fund is that the 
law only allows 50 percent of those funds for harbor 
maintenance, dredging of ports deeper than 45, but could we not 
propose to expand 100 percent for ports of any depth, and allow 
for construction dredging and berth dredging?
    Expanding the use of these funds would allow the ports that 
pay the most in the system to use the funds.
    Is it possible we should expand the use of this Fund?
    Ms. Darcy. I was checking to see. I am sure there is the 
possibility of expanding uses of the Fund. I was checking to 
see at what depth do those people pay into the Fund, whether it 
is all users or if it is a port at a certain depth.
    That question, I would like to be able to answer for you.
    Mrs. Napolitano. Would you just send the subcommittee the 
answers? It would be important.
    Going over to the two dams I mentioned previously, the 
Whittier Narrows and the Santa Fe in my area, if the study is 
positive in the Whittier Narrows Dam, which has been probably 
in 8 years or more under consideration, they found some leak, 
so they are having to do the re-study to be able to increase 
the capacity.
    If the study is positive and no major construction or 
repair is required, how long would it take to increase the 
water conservation level to store more water that can be 
captured for the settling ponds and recharge of the aquifers, 
if no repair is required?
    General Temple. As you know, ma'am, the study, the dam 
safety study, is funded in the----
    Mrs. Napolitano. And it is underway.
    General Temple. We intend to finish that as expeditiously 
as we can. Once we finish that, we will know what actions we 
need to take with respect to dam safety and public safety 
first, and then we can assist in addressing the water supply 
issues in an appropriate way.
    Mrs. Napolitano. Right. My question is the timeframe after 
the studies are complete to be able to proceed to build up the 
levies to capture more water and be able to put into settling 
ponds to the aquifer.
    General Temple. I would have to get back with you on that.
    Mrs. Napolitano. Thank you. I really appreciate that.
    Secretary, when will the Corps begin the dam safety study 
on the Santa Fe Dam so we can conserve more water? This is 
above the Whittier Narrows Dam.
    It does have a lot of dredging, not a lot, but it does 
require dredging, so it will be able to conserve more water, 
and that is above the Whittier Narrows.
    Ms. Darcy. I do not have the exact date, Congresswoman, but 
we can get it for you.
    Mrs. Napolitano. Would you, please? I would be really very, 
very thankful.
    Again, I did not realize you were retiring, sir, so my 
congratulations for all the work you do, especially in Iraq and 
Afghanistan, a tremendous amount of work with Colonel Magnus. 
Thank you so much for your service, sir.
    General Temple. Thank you, ma'am.
    Mr. Gibbs. Mr. Fleischmann?
    Mr. Fleischmann. Thank you, Mr. Chairman. Chairman Gibbs, 
Ranking Member Bishop, I appreciate the opportunity to 
participate today. I am a member of the Full Transportation 
Committee but I am not on this subcommittee.
    Secretary Darcy and General, thank you for being here 
today.
    I wanted to speak about Chickamauga Lock. Just last week, 
Chairman Shuster was kind enough to visit the Chickamauga Lock 
with me. This is my second physical visit to the Lock since I 
was elected to Congress. It is not a pretty sight.
    It is my understanding, Secretary Darcy, that in fiscal 
2013, the President has zero dollars set for maintenance for 
the Lock. There is another lock that actually is being 
constructed next to it. There is no ancillary lock, which has 
basically had construction stopped on it.
    As you all know, under the Trust Fund, there is a priority 
of lock systems, and there is just no dollars for the future 
construction.
    Right now, there are about 300 monitoring devices on this 
lock. The indigenous materials are expanding.
    By the way, General, I want to thank Colonel Dunlap. He was 
most kind, has done an excellent job, and has met with me, and 
I appreciate his hospitality.
    Secretary Darcy, in terms of the maintenance phase, is 
there anything we can do? We have gone from $3 billion to zero 
on maintenance with a lock that is in tremendous disrepair. 
Your thoughts?
    Ms. Darcy. Congressman, I believe we still will be 
performing maintenance on the lock, it is just the enhanced 
maintenance that was not budgeted for. I think that is what you 
are referring to, the increased maintenance.
    We will continue to be able to operate the lock, however, 
as you know, it did not compete within that ranking, in the 
Waterways Trust Fund, as what we can afford as enhanced 
maintenance at this time.
    Do I have that right, General?
    General Temple. That is correct, ma'am.
    Mr. Fleischmann. A followup question. In terms of 
ultimately getting the new lock completed, the work that has 
been done is about half completed. It is going to take 
approximately $500 to $600 million in projected costs to 
complete the new lock.
    What are your thoughts in terms of the way it is set? Right 
now, all the funds appear to be going to the Olmsted Lock in 
Kentucky, which has cost overruns. It is out there in terms of 
when it is going to be completed.
    This lock is literally getting starved out. What are your 
thoughts in terms of getting this funded?
    Ms. Darcy. Congressman, as I said in my opening statement, 
the President has proposed an user fee for the Inland Waterways 
Trust Fund, in order to increase the revenues coming into that 
Trust Fund.
    There is just not enough money there for all the 
outstanding needs, including the lock you are referring to.
    Hopefully, in being able to adopt an user fee soon, we will 
be able to get increased revenues into the Trust Fund and be 
able to fund more of the pressing needs in the inland waterways 
system.
    Mr. Fleischmann. Secretary Darcy, I understand there is a 
desire to get more funds into the Trust Fund.
    Secretary Darcy, is it not fundamentally flawed the way 
that it is set up now, so that even with more funds in there 
these funds would just go to Olmsted without any reformation of 
the existing Trust Fund?
    I think that appears to be the fundamental problem if I'm 
correct, and I'm solicitous of your thoughts.
    Ms. Darcy. Well, within the revenues that have come into 
the fund, we do have to make choices and prioritize, but we do 
work with the Inland Waterway users to help to advise us on 
what those priorities should be with the limited funding that 
we have.
    I do not know if you want to add.
    Mr. Fleischmann. General, do you have any thoughts on this 
issue?
    General Temple. Well, I certainly agree with the Secretary 
in that with limited funds we have had to make some difficult 
choices. With additional income, it may give us the opportunity 
to expand the number of choices that we are able to apply these 
limited dollars to, sir.
    Mr. Fleischmann. Thank you, Mr. Chairman. I yield back.
    Mr. Gibbs. Would you yield your time to me?
    Mr. Fleischmann. I would be glad to.
    Mr. Gibbs. I just wanted to follow up a little bit on his 
time. When you are talking about the President's, say, user 
fee, do you have any details of that? Because there is a 
question if it is for operation and maintenance versus 
construction, for the first part of that, and what the details 
of that proposal are.
    Ms. Darcy. It would be used for the same purposes as the 
current tax is used for. So it would be for construction, and 
that is what the additional fee would be used for.
    In the President's proposal, it is a vessel fee. We have 
not worked out the details of what exactly that would be, and 
our hope is that we can work with this committee and others to 
help to fashion what that should look like, but any sort of fee 
change or restructure will also need the concurrence of the 
Ways and Means Committee, I would think.
    Mr. Gibbs. OK. So the proposal right now is just conceptual 
basically.
    Ms. Darcy. Yes.
    Mr. Gibbs. OK. Thank you.
    Representative Richardson.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    Several questions: first of all, according to our committee 
memo, recreational areas managed by the Corps may see a cut of 
approximately $7 million. Can you share with the Committee 
which parks potentially would be closed and services reduced?
    Ms. Darcy. Congresswoman, I would have to get back to you 
on the list of which ones, but what we are trying to do is with 
the resources that we have, continue to operate as best we can 
and operating maybe reducing hours as opposed to actually 
closing a facility or closing some of the campsites at a 
facility, not all of them.
    Also we are trying to do a lot with our partners. We have a 
lot of partnerships at our core facilities with a lot of local 
either NGOs or education organizations that have been helping 
us leverage, you know, the kinds of time we have. We have more 
volunteers who have helped us with our recreation program, over 
1.4 million hours of volunteers last year. So it helped us to 
keep our program vibrant.
    So I will get you the list of what will actually be closed 
this year.
    Ms. Richardson. I doubt that any of them are in my District 
in particular, but I can tell you as Members of Congress have 
to vote on these issues, it would be helpful for them to know, 
and then that way they could advocate. And I am sure my 
interest is on behalf of the entire American public obviously 
that can benefit.
    My second question is if you could share with the Committee 
a little bit about the importance of the Continuing Authorities 
Project, Section 103, and the planning assistance to States. I 
plan on coming to the chairman, Mr. Gibbs, and Ranking Member 
Bishop to seek their assistance as we go through this process, 
but there are existing programs that do exist that have the 
ability to fulfill the mission of the Corps, which is to work 
with State and local governments to insure that we can have 
appropriate restoration, and so on. But unfortunately, these 
programs are not adequately funded.
    So could you share on my behalf for the chairman and the 
ranking member why these are so vitally important and we 
consider funding them?
    Ms. Darcy. Congresswoman, planning assistance to States is 
an important program that we have within the Corps, and I know 
that we have worked in your District on some of that, and that 
is funded in the President's 2013 budget request.
    However, Section 103, which is a Continuing Authorities 
Program, is not. In looking at priorities, some of our 
Continuing Authorities Programs were ones that decided were not 
budgetable this year because of competing needs.
    Ms. Richardson. A couple of questions. I am sorry. 
Specifically I am asking can you explain what can be done with 
the Continuing Authorities Projects, Section 103. What are some 
of the typical projects or programs that you could work with 
local governments to assist with? Why is it important?
    Ms. Darcy. Well, I guess I am confusing 103 and Planning 
Assistance to States. Planning Assistance to States is each 
State gets a portion of the funding, and we are able to work 
with States as the local sponsor for developing projects, as 
well as being cost share partners with them.
    The 103 Continuing Authorities Program is specific to, I 
believe, shoreline protection, and those are smaller projects 
that are part of a larger program that do not require 
individual authorization or study. And for that particular 
Continuing Authorities Program we did not budget for it this 
year because of, as I say, the competing needs within the 
programs.
    Ms. Richardson. So, Mr. Chairman, what I would like to 
share for the record, it is my understanding that the planning 
assistance to States was only funded for $4 million, and what 
that equates to to individual States is what, less than 500,000 
or something? At least in California that is what is received.
    So if you can imagine in, you know, the second largest 
State in the Union, 500,000 clearly is not adequate to deal 
with the problems that we are facing in the area, and I really 
appreciated your comments, Mr. Chairman, when you talked about 
the concern of, yes, we need to be fiscally prudent, but we 
also have to make sure that we are not penny wise and pound 
foolish down the road.
    So, for example, the Continuing Authorities Project, 
Section 103, gives us the ability, for example, in my District 
where you have got literally roads that are falling into the 
ocean, I mean, eventually it is going further. The cracks are 
going further and further and further, and finally you are 
going to have homes and everything else.
    So I would like to follow up with you about these two 
particular programs to see how they might be adequately funded 
for the future.
    My last question has to do with Urban Waters Federal 
Partnership. It is my understanding that that might be on the 
board of funding for the EPA, however not at this time with the 
Army Corps. Do you have anything you would like to share with 
us about that program?
    Ms. Darcy. We are in partnership with EPA on some of those 
projects, but as you say, the Urban Water Partnership Programs 
we are just becoming actually involve in in some areas, 
including, I believe, we are in L.A. River.
    Ms. Richardson. OK. All right. With that I will yield back 
the balance of my time. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Cravaack, do you have questions?
    Mr. Cravaack. Thank you, Mr. Chairman. I do.
    Thank you very much. I appreciate your being here today, 
General. Good seeing you. I would like to give a good shout-out 
to Colonel Mike Price of St. Paul District. A great officer, 
fantastic; represents the Corps well.
    Ms. Darcy, I have a question for you in regards to how much 
is in the Harbor Maintenance Trust Fund.
    Ms. Darcy. The balance, sir?
    Mr. Cravaack. Yes, ma'am.
    Ms. Darcy. The balance, I believe it is about $6 million.
    Mr. Cravaack. OK. Does 100 percent of that go directly to 
Harbor Trust Fund, Harbor Maintenance?
    Ms. Darcy. It does not. The amount that goes to harbor 
maintenance, dredging, is an appropriated amount from that 
Trust Fund.
    Mr. Cravaack. About 80 percent, I would assume, or 
something around there. Let me ask you a question though. All 
of the money that is in that Trust Fund right now, is there 
actually money in the fund?
    Ms. Darcy. Yes, sir.
    Mr. Cravaack. So it is sitting there. It cannot be touched 
by anybody else? It is not an IOU or anything?
    Ms. Darcy. It has to be appropriated.
    Mr. Cravaack. OK. It has to be. So it is sitting there in 
an account ready to be used at any time.
    Ms. Darcy. Yes.
    Mr. Cravaack. OK. Then why are only--and, General, you 
might be able to help me out with this--why are we having such 
difficulty in getting our harbors into the widths and depths 
that are needed or they are supposed to be? Why are we having 
such trouble doing that then?
    The number I have is we have about 7.1 in the account. Why 
is that? Because every inch of silt in the harbor in Duluth, 
for example, that is taconite that is left on the shore. So why 
is it 10?
    General Temple. Sir, we work the dimensions of each of the 
harbors based on a system of prioritization first, and then 
work within the appropriated amount second, and there is no 
question that that constrains us in most cases from providing 
the authorized dimensions of the channels. But it is our 
purpose to insure that the channels are sufficient dimensions 
to insure the safety and economic success of that particular 
harbor, sir.
    Mr. Cravaack. With all due respect, sir, who is the person 
or who makes the decision on the safety of that?
    Correct me if I am wrong, but is there not a specified 
direction of certain harbors, the depth and width that they 
should be? Is that a correct statement?
    General Temple. Oh, there is, sir, but in cooperation with 
the Coast Guard and the local Port Authority, we are able 
through collaboration to determine what we believe the minimum 
safe dimensions are for that harbor under certain operating 
conditions.
    Mr. Cravaack. OK. Then why do we have minimums already 
specified? I mean, Duluth Harbor is supposed to be a certain 
width, a certain depth, and I am hearing from my District that 
it is not good enough. What is the issue? Why are we not making 
sure that all the harbors, at least specifically Duluth, why 
are they not dredged to the proper depths and widths so we can 
get more taconite on the ships and get them off the port?
    General Temple. Sir, because we are operating within the 
appropriated amount that we are given to support the entire 
Nation. So that means there is virtually no harbor that is 
getting the full dimensions under those constraints.
    Mr. Cravaack. OK. An you are saying that all the monies, 
all of the fees that are collected, because it is fee based, 
that are collected for this Harbor Trust Fund are used 
specifically for harbor maintenance only and what it was 
intended to be used for; is that correct?
    Ms. Darcy. The amount that is used for dredging is what is 
appropriated from the account, and the request for this year 
from the President is $848 million.
    Mr. Cravaack. I see my time has expired.
    Mr. Bishop. Mr. Cravaack, may I ask you to yield to me the 
balance of your time?
    Mr. Cravaack. I would be happy to, sir.
    Mr. Bishop. And, Mr. Chairman, indulge me for a few minutes 
because this is really important, and I think we have some real 
bipartisan both agreement here and concern here.
    Let me state my understanding of how the Harbor Maintenance 
Trust Fund operates, and please correct me if I'm wrong. It 
operates essentially the way the Social Security Trust Fund 
does, and in years in which we collect more than we use, the 
balance that is not being used is used to fund other areas of 
the budget, just like Social Security, and the Harbor 
Maintenance Trust Fund is, in effect, repaid with U.S. 
Government bonds in the same way that the Social Security Trust 
Fund is.
    This is a problem of longstanding and bipartisan causation, 
if you will. The Harbor Maintenance Trust Fund, as I understand 
it, was established under President Reagan in 1980. Not a 
single President from 1980 to now has requested that the full 
amount of the annual proceeds be spent exclusively on harbor 
maintenance, dredging and so on. So we have built up this 
balance over the course of the years.
    I am right so far, am I not?
    Ms. Darcy. Yes, sir.
    Mr. Bishop. OK. So here is the problem. We take in, and I 
am round numbering it, we take in roughly $1.4 billion a year. 
We spend roughly $700 million a year. If we were to fully 
expend that $1.4 billion, which you would want and I would want 
and I think Chairman Gibbs would want, then either we are going 
to have to increase our expenditures as a country so instead of 
spending $3.7 trillion we are going to spend $3.77 trillion, or 
we are going to have to cut $700 million somewhere else.
    So part of the problem is us. Part of the problem is the 
Appropriations Committee. So we have this thing called the RAMP 
Act, which we are trying to get passed, although even the RAMP 
Act does not fully address the problem because it deals with a 
point of order, does not increase the 302(b) allocations, and 
so on.
    So collectively we are onto something here. We want to 
spend more money, but it is not the Army Corps. It is the 
combination of OMB and the appropriators because if we went to 
the appropriators right now and said, ``Do you know what? This 
is not fair. We need to spend this fully on harbor maintenance 
dredging or harbor dredging,'' they would say, ``Do you know 
what? That is fabulous, but where are we going to cut the other 
$700 million that we are now going to spend on dredging that 
right now we are spending on'' fill in the blank?
    So that is the problem, and I mean, I am 100 percent behind 
the idea of fully spending down the Harbor Maintenance Trust 
Fund. We have got needs all over this country, but all I am 
suggesting is that it is not fair to have the Army Corps be the 
entity that is responsible for the fix. We are the ones 
responsible for the fix. On a bipartisan basis we have got to 
just step up to the plate and tackle this one.
    Mr. Gibbs. The gentleman's time has expired.
    Mr. Bishop. Pardon the mixed metaphors of two different 
sports.
    Mr. Gibbs. Thank you.
    I wanted to follow with my question. We are starting the 
next round of questions, and my next questions were starting to 
address this.
    But I wanted to, first of all, clear something up that my 
ranking member said in his first round of questions about doing 
more with less. This committee is always about that, and I have 
been a strong proponent of the RAMP Act, and we are trying to 
get the RAMP Act in the Highway Surface Transportation bill 
because I realize the need to get this dredging done, 
especially when the President has put a challenge out there to 
double our exports or whatever it is in the time period, 
whatever it was.
    So that goes to my questions, Secretary. Why does the 
administration not just go ahead and say, we are going to fully 
recommend to spend the full amount, the $1.4 billion per year, 
instead of 50 percent of it, especially knowing that the 
circumstances of our infrastructure and trying to get our 
exports up?
    Ms. Darcy. The amount that is requested in the President's 
budget is as I said $848 million, the highest any President has 
ever requested from this fund, and it is also a 12-percent 
increase over last year's request. So at that level we believe 
that we can meet the President's initiative of doubling exports 
by 2015.
    Mr. Gibbs. I will respectfully disagree on that one, but I 
think we ought to go for the full amount, and that is what my 
ranking member is saying, too, I believe.
    Mr. Bishop. I am with you, Mr. Chairman.
    Mr. Gibbs. We have got bipartisan support there.
    I have not really been able to figure out where the rest of 
the $700 million goes, but that seems to be somewhere out 
there.
    General Temple talked a little bit about Olmsted because 
that is taking so much of our capital budget, and I did visit 
there last August. I see in the President's budget 
justification sheets he has requested change so that the 
project will increase approximately over $3 billion. How much 
of that would be spent on salaries and administrative costs at 
the district level? Do you know?
    General Temple. Approximately 7 percent, sir.
    Mr. Gibbs. Seven percent. OK. Due to the schedule delays of 
getting Olmsted done, as we all know, that Locks 52 and 53 that 
Olmsted would be replacing, what funding increases in schedule 
are we going to have to do to those locks to keep them in 
service for the next 5 to 8 years?
    Is that part of this $3 billion or is there additional 
money that will go for 52 and 53?
    General Temple. Sir, the $3 billion is focused on finishing 
construction of Olmsted. With respect to 52 and 53, we will 
continue to use O&M funds to sustain those locks and continue 
to monitor them as we do all of our inland waterway 
infrastructure, and if we see indications of continued 
deterioration there, we will enter into a study to determine 
what additional O&M dollars may be needed to keep 52 and 53 
open until Olmsted becomes operational.
    Mr. Gibbs. Negating another study right now, how many 
expenditures do you anticipate will have to be spent before you 
have to do another study on 52 and 53?
    General Temple. Sir, I would have to get back with you on 
the exact amount.
    Mr. Gibbs. I appreciate that. Another question following up 
on the Olmsted. Is there any consideration of finishing the dam 
using the cofferdam instead of doing it in the wet since that 
was kind of a new deal?
    General Temple. Right, sir. We have asked the Division and 
District to take a look at the full venue of possibilities with 
respect to construction techniques, contracting techniques, 
plans and specs, to see what other options we may have with 
respect to finishing this important project, and we expect that 
report back a little later this spring, sir.
    Mr. Gibbs. Because the wicker part of the dam, that has not 
even started yet. You are on the other part of the dam, right, 
the conventional type?
    General Temple. Yes, sir. I am talking about Olmsted.
    Mr. Gibbs. Yes, Olmsted is what I am talking about, yes.
    General Temple. Yes, sir.
    Mr. Gibbs. I heard a little bit of General Walsh's comments 
to a group that I spoke to afterwards a few weeks ago, and he 
mentioned about establishing the 3-3-3 proposal. Because I am 
really concerned about these studies and additional studies and 
the protraction and lengthening of the projects. What can you 
tell me?
    You had an 18-month pilot program, I believe. Where are we 
with the 18-month pilot program versus the 3-3-3, which is 3 
years to complete the study--and I like this--in a three-ring 
notebook, and it should cost no more than $3 million, correct?
    General Temple. That is correct, sir, and at less than 100 
pages ideally.
    Mr. Gibbs. So are we moving forward there pretty well on 
this?
    General Temple. Well, as you know, sir, we have six pilot 
projects ongoing, and one of the first that we expect to 
address is Central Everglades in Florida, which should be 
available in the January 13 timeframe, sir. So we think we may 
be onto a technique that will help us and the Nation compress 
these studies and move forward with projects in a more rapid 
fashion.
    Mr. Gibbs. Well, I want to compliment you on this concept 
because as you heard my opening statement, I am really 
concerned about the studies and studies on top of studies. We 
are studying things to death, and we are losing our global 
competitiveness because of it. I think sometimes we know what 
the end result is going to be anyway.
    Anything we can do to work with you, I know some of it is 
because of legality reasons, but we need to do as much as we 
can.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Quickly, I have a couple of things that I want to go over. 
First, on Harbor Maintenance Trust Fund, just to try to close 
the loop, Congressman Landry and I sent a letter. We got over 
80 signatures, bipartisan, to Chairman Ryan asking him in his 
budget proposal to fully spend down at least the annual 
proceeds of the Harbor Maintenance Trust Fund as it comes in.
    I will say to my friend from Minnesota and to the chairman, 
I would be happy to join you in sending a letter to the 
appropriators urging them to spend the full amount. If that is 
something that you are interested in, let's talk and we can do 
that because I think it is very important. And, again, it is 
something that I think we agree on.
    Just with respect to the comments that Representative 
Shuster was making on process and how long it is taking, my 
understanding of the budget includes a $9 million increase in 
the regulatory portion of the budget. Is it reasonable for me 
to assume that that will allow you to add to the resources that 
are necessary to go through the review process?
    Ms. Darcy. The increase is welcome because we have seen an 
increase in our permits over the years, over the last couple of 
years, and anticipate even more.
    Mr. Bishop. But it will give you the staff to handle these 
reviews in a somewhat more expeditious fashion; is that 
correct?
    Ms. Darcy. That is our expectation.
    Mr. Bishop. OK. Great. Thank you.
    I have a district specific thing that I would like to raise 
with you. I represent, as I have said, the eastern end of Long 
Island, and there is a project there. It is the Mattituck Inlet 
Section 111 Project, and as I understand the status of the 
project, the New York District and, Madam Secretary, your 
office are currently discussing language for a proposed 
partnership agreement that would be executed with the Town of 
Southold. It is my understanding that given the limited number 
of Section 111 projects in the Nation, the New York District is 
required to get the sign-off of the Secretary in order to move 
forward, and so my questions are, and I will understand if you 
do not have the answers at your fingertips, but if you do not, 
if you could get them to me as quickly as possible because this 
is a big, big priority for me and for my District; can you (a) 
please update me on the status of the project?
    (b) Can you give me a sense of when the project is ready to 
move to the next phase?
    And (c) can you give me a sense of what the next phase of 
the project is?
    As I say, of the big areas in my District, this is now the 
top of the list in terms of getting that done. So as I say, if 
you cannot answer now, I understand, but if you could, get it 
to us quickly.
    Ms. Darcy. What I can tell you, Congressman, about this 
project is that the draft Project Partnership Agreement is 
being developed, and it will probably be in my office before 
the end of the year.
    Mr. Bishop. OK. Before the end of the?
    Ms. Darcy. The year.
    Mr. Bishop. Before the end of the year?
    Ms. Darcy. And if you want more specifics, I can get those 
for you.
    Mr. Bishop. I would also like it a little quicker than that 
because it is only March. I thought you had said the end of the 
week.
    Ms. Darcy. Oh, no.
    Mr. Bishop. Which I was going to say that is fabulous.
    [Laughter.]
    Ms. Darcy. They would kill me.
    Mr. Bishop. Yes, yes. How about by the end of the month?
    Ms. Darcy. End of the month? No.
    Mr. Bishop. If you could accelerate it and give it some 
priority, I would appreciate it greatly, and I know the people 
that are the residents of the North Fork of the island would 
appreciate it as well.
    One last thing. Mr. Fleischmann raised some very important 
points, as did the chairman a second ago. It is very clear we 
have a broken system here. We have a proposal from the 
President. We have pushback and, in effect, a counterproposal 
from the industry and the stakeholders. Can we please, and 
whether Congress is involved or not, but can we please sit down 
and try to figure out how to go forward here?
    Because we have needs all over this country. I mean, I was 
at the lock in I guess it is the Industrial Canal.
    Ms. Darcy. In New Orleans?
    Mr. Bishop. In New Orleans. I mean, the thing has been 
functioning for 90 years, and if it were not for the 
professionalism of the Corps employees who maintain it, I think 
we would be in big, big trouble, and we are inviting a disaster 
here.
    We have a system that is outdated, needs to be fixed, and I 
think we all agree we have got to fix it.
    And lastly, let me just say one last thing, Mr. Chairman, 
and that is that we have water needs all over this country. I 
hope that we can take on as a challenge that we would undertake 
on a bipartisan basis working on award of 2012 or award of 2013 
because we definitely need to impose, if you will, the 
perspective of the Congress on the needs that we have.
    With that I yield back. Thank you.
    Mr. Gibbs. Do any other Members have any questions? Yes, go 
ahead.
    Mrs. Napolitano. Thank you, Mr. Chair.
    And this is regarding the Corps vegetation policy. I have 
been contacted by the California Water Resources and the L.A. 
County Flood Control, and they are concerned about the Corps 
proposed levy vegetation policy that would remove a lot of that 
vegetation from the levies, and it requires the State and the 
county to remove that vegetation.
    The concerns that they have outlined have included the 
extremely high cost of levy construction and mitigation 
resulting from the policy will divert limited resources from 
the remediation of critical risk factors with little or no 
improvement to public safety. For many years the vegetation has 
encouraged and protected, all introduced by the Corps on levies 
in California.
    Now, the Corps should make a clear distinction between 
existing levy systems and new Federal project improvements. 
They accept the concept that the new levies should be 
constructed and maintained in full compliance with Corps 
vegetation policies, but a reasonably adaptable approach that 
recognizes the integration of woody vegetation is imperative 
for those existing levies.
    The Corps policy guidance is so stringent, according to 
these two agencies, it is burdensome and it is expensive; that 
the variances are unlikely to be sought or issued except under 
specialized local circumstances.
    Would you care to give us some information as to how this 
is going to work out? Any comments?
    Ms. Darcy. We do have a levy vegetation policy and we have 
been working with the State of California on it and trying to 
be flexible in not only the implementation, but also the 
variances that would be granted for that, recognizing that the 
levies, especially the existing ones with some woody vegetation 
may in some instances be able to get a waiver.
    So we have been working with the local Districts on that.
    Mrs. Napolitano. Well, it just says that the variances are 
unlikely to be sought or issued except on very specialized 
circumstances.
    Ms. Darcy. The variances would be issued on a case-by-case 
basis, depending on the condition of the levy and, you know, 
the main concern, of course, with any vegetation on a levy is 
does it impair the integrity of the levy. Does it impede with 
flood fighting? And does it in any other way impede the 
effectiveness of the levy?
    So those things will have to be considered before we would 
be able to even grant a variance.
    Mrs. Napolitano. OK. Since the Corps did actually include 
levy vegetation in the past, am I assuming that any new 
construction will then seriously consider what effect this 
might have in the future on those levies?
    Ms. Darcy. Yes, in any future construction, yes.
    Mrs. Napolitano. Thank you.
    I would appreciate any information so I can get it back to 
these agencies that have inquired.
    Ms. Darcy. We can do that.
    Mrs. Napolitano. And I yield back.
    Mr. Gibbs. Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chair.
    I just want to continue on with the Harbor Trust Fund to 
make sure I am perfectly clear on that. Now, General, you said 
that the widths and depths of the harbors are not to the 
specified specifications, and yet do I understand that there is 
an overage from the ranking member saying that money is being 
taken from the Harbor Trust Fund and given back into the 
general revenue? Is that correct, Ms. Darcy?
    Ms. Darcy. Yes. The entire balance that is collected is not 
expended for dredging.
    Mr. Cravaack. OK. Because I thought pretty much I asked 
that question. I said was all of the money out of the Harbor 
Trust Fund being used for the harbors, and you said, yes, it 
was.
    Ms. Darcy. It is the amount that is appropriated that is 
used for dredging. I did not want to confuse construction with 
dredging.
    Mr. Cravaack. OK. So as I understand it, in the Harbor 
Trust Fund Maintenance Fund, there is an overage, and that 
overage is given at times back to the general revenue; is that 
correct?
    Ms. Darcy. That is correct. Only a portion of it 
historically has been used for dredging.
    Mr. Cravaack. OK, and that is because of the specifications 
within the appropriations process that only a certain amount is 
being used for harbor dredging.
    Ms. Darcy. Yes. It is appropriated out of the Trust Fund. 
That is correct.
    Mr. Cravaack. OK. And as I understand, General, 100 percent 
of that money that is appropriated for harbor dredging is being 
used for that; is that correct?
    General Temple. That is correct, sir.
    Mr. Cravaack. So every dime.
    General Temple. Yes, sir.
    Mr. Cravaack. Excellent. So you need more money to dredge, 
to get the appropriated amount of money so that harbors can be 
dredged to their specific widths and depths.
    General Temple. Yes, sir. As I said earlier, if we had more 
dollars available, we would be able to more closely achieve the 
authorized dimensions.
    Mr. Cravaack. OK. So what we need to do is change the 
appropriations aspect of it to make sure you get the money you 
need to do it.
    OK. Thank you very much. I appreciate that clarification. 
It was very educational, and I will yield back.
    Mr. Gibbs. Just to follow up on Representative Cravaack's 
to the General, every dime that is used is supposed to go for 
dredging, but what percent of the HMT goes for staffing 
administrative costs?
    General Temple. I would have to get back with you on the 
exact costs there, sir.
    Mr. Gibbs. OK. You know, I am hearing things out there that 
maybe we are getting too much on personnel costs and we are not 
adjusting that the way we should be. I do not know. That is why 
I asked the question.
    I have a question for Secretary Darcy. Last October, there 
was a court decision in National Mining v. Jackson. It ruled on 
enhanced coordination procedures, including the use of 
multicriteria resource assessment developed by the EPA and the 
Army Corps was unlawfully changed in permitting the process for 
Section 404 coal mine permits under the Clean Water Act.
    What steps are being taken by the Corps to ensure, as it is 
stated in the decision, that if the responsibility involving 
the permitting process has not been delegated to the EPA by 
Congress, that function is vested in the Corps as the 
permitting authority?
    So where are we with that?
    Ms. Darcy. As a result of that court decision, we are 
processing the permits as we had done before.
    Mr. Gibbs. OK. In light of that decision, the permits that 
were caught up during the illegal enhanced coordination 
process, what is the status of those permits?
    Ms. Darcy. Those permits, as I say, will just go into the 
regular process that we had done before the Enhanced 
Coordination Program.
    Mr. Gibbs. OK, and I have a followup question from the 
ranking member of the full T&I, Mr. Rahall. He says there is 
some confusion about the 404 permits that are now illegal, as I 
just said. In your estimation how many of these Section 404 
permits have been issued for mining activities in Appalachia?
    Ms. Darcy. I believe the number is 80.
    Mr. Gibbs. Eighty? OK. How many of these permits involve 
Valley Fill activities of the 80, I guess?
    Ms. Darcy. That I would have to get back to you on.
    Mr. Gibbs. OK. Can you also share with the Committee when 
these permits were issued?
    Ms. Darcy. We can get that information for you.
    Mr. Gibbs. OK. I appreciate that.
    Does anyone else have anything?
    Mr. Bishop. Just real quickly.
    Mr. Gibbs. Go ahead.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Secretary Darcy, I understand the National Academy of 
Sciences is conducting a review of the Army Corps. Can you give 
us a sense of what the Army Corps plans to do with that review 
once it is completed?
    Ms. Darcy. Whenever the National Academy of Sciences takes 
a look at our agency or our program, we take it very seriously. 
So I am awaiting their review, and I am not sure when that is 
coming.
    Mr. Bishop. And one other question on the River Basin 
Commissions' award of 2007 directed the Corps to fund the three 
River Basin Commissions, but that has not happened since 2009. 
Can you tell us why the Corps budget does not include funding 
for the three River Basin Commissions?
    General Temple.
    General Temple. As a former Commissioner, sir, for the 
Susquehanna, Potomac, and Delaware River Commissions, the 
Federal participation has never been funded as far as I know. 
It was not funded when I was a Commissioner from 2002 to 2005.
    Mr. Bishop. All right. Thank you. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Gibbs. I want to thank the witnesses for coming today.
    Just a parting thought. I am a little bit disturbed when we 
were talking about the Keystone Pipeline and the permits and 
the President's request to expedite the process, but then I 
hear from the Secretary about they have to re-apply. They have 
already got permits pending. You know, either amend them or 
move forward and maybe truly expedite the process. I just make 
that as a closing comment. I am concerned about if this is not 
a more political way to say, well, we are moving forward, but 
in reality since we are making them re-apply and go through 
that entire process that it drags it on. I question the 
definition of ``expedite'' then.
    So thank you, again, for coming today.
    Ms. Darcy. Thank you, sir.
    Mr. Gibbs. And this concludes this hearing.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
